<html>
<title> - THE NATIONAL ACADEMY OF SCIENCE ICEBREAKER REPORT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
            THE NATIONAL ACADEMY OF SCIENCE ICEBREAKER REPORT

=======================================================================

                                (109-99)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2006

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                    U.S. GOVERNMENT PRINTING OFFICE
30-669                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

  


        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                FRANK A. LOBIONDO, New Jersey, Chairman

HOWARD COBLE, North Carolina         BOB FILNER, California, Ranking 
WAYNE T. GILCHREST, Maryland         Democrat
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
ROB SIMMONS, Connecticut             GENE TAYLOR, Mississippi
MARIO DIAZ-BALART, Florida           JUANITA MILLENDER-McDONALD, 
DAVID G. REICHERT, Washington,Vice-  California
Chair                                MICHAEL M. HONDA, California
CONNIE MACK, Florida                 ANTHONY D. WEINER, New York
LUIS G. FORTUNO, Puerto Rico         BRIAN HIGGINS, New York
CHARLES W. BOUSTANY, Jr., Louisiana  BRIAN BAIRD, Washington
DON YOUNG, Alaska                    JAMES L. OBERSTAR, Minnesota
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Bement, Dr. Arden L., Jr., Director, National Science Foundation     2
 Jones, Anita K., Chair, Polar Research Board, Committee to 
  Assess U.S. Coast Guard Polar Icebreaker Roles and Future 
  Needs, the National Academies..................................     2
 Nimmich, Rear Admiral Joseph L., Assistant Commandant for Policy 
  and Planning, U.S. Coast Guard.................................     2
 Treadwell, Mead, Chairman, U.S. Arctic Research Commission......     2

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Filner, Hon. Bob. of California..................................    29
LoBiondo, Hon. Frank A., of New Jersey...........................    43
Young, Hon. Don, of Alaska.......................................    54

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Bement, Dr. Arden L., Jr........................................    21
 Jones, Anita K..................................................    31
 Nimmich, Rear Admiral Joseph L..................................    44
 Treadwell, Mead.................................................    49

                       SUBMISSION FOR THE RECORD

 Nimmich, Rear Admiral Joseph L., Assistant Commandant for Policy 
  and Planning, U.S. Coast Guard, Mission Analysis Report: Polar 
  Ice Operations, June 10, 2005 (located in subcommittee file)


            THE NATIONAL ACADEMY OF SCIENCE ICEBREAKER REPORT

                              ----------                              


                      Tuesday, September 26, 2006,

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Coast Guard and Maritime Transportation, 
            Washington, D.C.
    The subcommittee met, pursuant to call, at 1:05 p.m., in 
room 2167, Rayburn House Office Building, the Honorable Frank 
A. LoBiondo [Chairman of the subcommittee] presiding.
    Mr. Young. [Presiding] The Committee will come to order.
    I do apologize to my Chairman, but he is not here right now 
and because my time is short, we are going to go ahead and 
start this fine testimony about icebreakers.
    I would like to welcome the witnesses: Mr. Mead Treadwell, 
an Alaskan, Dr. Bement, Rear Admiral Nimmich, and Dr. Jones. 
Welcome to the hearing.
    Personally, I will have to tell you I am extremely 
interested in the icebreakers, where they are stationed, what 
is the future, what are our plans, primarily because of the 
``global warming.'' With all the negativism that is occurring, 
we also have to look at the positive side that there is a 
strong possibility that the northern part of our hemisphere 
will be connected with the European continent via water for 
year-round trade and traffic which would be a tremendous asset 
because we would be able to move product without the 
expenditure of fossil fuel which now occurs. In fact, it will 
be a bit shorter to the two greatest markets in the world which 
would be Russia and the United States. I am very much 
interested in what you have to present to me today.
    Again, I am a little bit concerned about the diminishing 
role. I would like to promote the role of icebreakers instead 
of diminishing the role, and I try to encourage the people in 
the Administration to understand that there is a future to look 
at, and we must not be dependent upon just other countries. We 
have to be deeply involved in the icebreaking capability.
    With that, I would like to call Dr. Jones to be the first 
witness. Doctor, again, welcome.

   TESTIMONY OF ANITA K. JONES, CHAIR, POLAR RESEARCH BOARD, 
COMMITTEE TO ASSESS U.S. COAST GUARD POLAR ICEBREAKER ROLES AND 
 FUTURE NEEDS, THE NATIONAL ACADEMIES; REAR ADMIRAL JOSEPH L. 
 NIMMICH, ASSISTANT COMMANDANT FOR POLICY AND PLANNING, UNITED 
 STATES COAST GUARD; ARDEN L. BEMENT, JR., DIRECTOR, NATIONAL 
   SCIENCE FOUNDATION; MEAD TREADWELL, CHAIRMAN, U.S. ARCTIC 
                      RESEARCH COMMISSION

    Ms. Jones. Thank you. Good afternoon, Congressman Young, 
members of the Subcommittee, and staff. Thank you for inviting 
me to speak to you today about the current and future roles of 
the U.S. Coast Guard icebreaking operations and to explain the 
importance of the capability to the national needs.
    My name is Anita Jones. I serve as the Chair of the 
National Academies' Committee to Assess U.S. Coast Guard Polar 
Icebreaker Roles and Future Needs. Our committee was asked to 
provide a comprehensive assessment of polar icebreaker 
missions, how these missions might change over time, and how we 
can reliably meet all national needs, given the state of our 
icebreaker fleet.
    First, I will summarize our findings and conclusions of the 
just completed study. The U.S. Coast Guard Polar Icebreaker 
Fleet has substantially diminished capability. The committee 
finds that the national strategic interests require that the 
Nation renew that fleet to be able to operate in both polar 
regions reliably and at will. We find that the Nation continues 
to need to have the capability to project an active influential 
presence for different reasons in the two polar regions. That 
need is growing in the Arctic. The Nation should continue to be 
a leader in polar region research.
    The icebreaker fleet needs to be renewed by building two 
new ships, a transition from the current diminished capability 
to a robust icebreaking capability should be planned. The U.S. 
Coast Guard should be budgeted to operate and maintain this 
multi-mission fleet. Lastly, a Presidential decision directive 
should be issued to reassert our interests, to clearly state 
what has changed, and to clearly align agency responsibility 
and budgetary authorities.
    Now, I would like to elaborate on just a few of these 
issues. Again, to achieve the national purposes, the Nation 
needs to be able to access various sites at different times of 
the year reliably and at will, and that assured access requires 
icebreaking ships capable of operating in challenging ice 
conditions. Over the past couple of decades, the Government has 
deployed a fleet of four icebreakers and three multi-mission 
ships operated by the Coast Guard. By multi-mission, I mean 
that they support the conduct of science as well as the 
missions of the Coast Guard, Homeland Security, maritime 
safety, national security, and protection of natural resources. 
In addition, the National Science Foundation operates a single 
mission ship that is solely dedicated to scientific research.
    Today, two of the multi-mission ships, the Polar Star and 
the Polar Sea, are at the end of their service life, 30 years. 
Deferred maintenance, absence of an upgrade program to extend 
their lifetime, and lack of replacement has left the U.S. with 
a multi-mission fleet of one ship, and the U.S. is at risk of 
being unable to meet its interests in the polar region, 
particularly in the Arctic. In the Arctic, the ice pack has 
thinned and retreated dramatically.
    This committee anticipates greater human presence in the 
Arctic with increased economic activity, as you alluded to. Oil 
companies have purchased a large number of leases in the sea 
and on the land of the Alaskan North Slope. Adventure travel to 
the North increases. The number of ice-strengthened tankers in 
the world will shortly double, incurring new traffic across the 
north of Russia and through the Bering Strait, we expect. 
Mining will be more cost-effective in Northern Alaska as ice 
retreat allows longer periods to load ore ships.
    Greater human activity will increase the need for the Coast 
Guard to assert a more active and influential presence in the 
Arctic to protect the Nation's economic, scientific, 
environmental, and foreign policy interests. This requires the 
use of icebreakers. The retreat of the sea margin is not 
uniform or predictable. Conditions may become more or less 
difficult. In our conversations with the Coast Guard, they have 
told us that they consider this their mission and actually look 
forward to it.
    The many needs that are documented in our report lead the 
committee to conclude that the Nation requires a multi-mission 
fleet. From a national point of view, from a national policy 
point of view, the Coast Guard missions transcend the support 
of science, but science missions are quite complementary. This 
has been demonstrated admirably both with science missions on 
the Healy and McMurdo break-ins using the Polar Sea and the 
Polar Star.
    While McMurdo break-in does not have to be performed by a 
military service, the break-in does require a reliably 
controlled ship. This committee concluded that that means U.S.-
owned, U.S.-operated, and U.S.-flagged. However, performing 
McMurdo break-in is compatible with the other demands on the 
multi-mission Coast Guard fleet, and the committee notes that a 
Coast Guard asserts a tangible U.S. presence; a leased ship 
does not.
    So, from the total fleet perspective, the committee 
believes that the Coast Guard should operate this multi-mission 
fleet, that it should be provided sufficient resources and 
maintenance budget to support an increased regular and 
influential presence in the Arctic. The committee believes that 
it will be cost-effective to the Nation if the science users 
reimburse incremental costs associated with directed mission 
tasking, a relationship that has worked very well in the past.
    Our report documents why we recommend new ship construction 
rather than upgrading existing ships, and we document the need 
for two new icebreakers, not one and not zero. These ships 
would be deployed solo and in concert for science missions, 
including going into the North Pole area and the deep Antarctic 
ice, logistics resupply to McMurdo, undersea continental shelf 
mapping to either support or refute territorial claims in the 
Arctic, command in case of a petroleum spill situation, search 
and rescue, economic activity, and more. With three ships, 
simultaneous deployment in both polar regions is possible, even 
in heavy ice conditions.
    This committee believes that the U.S. Coast Guard should 
reestablish a regular active patrol presence in the Arctic 
waters to meet statutory responsibilities that inevitably 
derive from increased human activity. A single ship will not 
assert the presence and will not allow us to go reliably and at 
will where we need to go.
    The report details how we would transition to those new 
ships. Our capabilities have diminished. We would rely on the 
Polar Sea being kept mission-capable until new ships come in 
with the Polar Star in caretaker status. In conclusion, 
Congressman Young, the Nation has a problem. Diminished polar 
icebreaking capability at a time when new and vital demands for 
such missions are rising in the Arctic. Funding has been less 
than adequate over recent years. Funding has been recently 
moved between agencies. Either Congress or the Administration 
or both needs to address this problem. In our report in our 
recommendations, we offer what we believe is an appropriate 
solution.
    Finally, the committee recommends that a Presidential 
decision directive be issued to reassert U.S. interests in the 
polar regions, to assert that polar icebreakers are essential 
instruments of U.S. National Policy and to clearly align agency 
responsibilities and budgetary authorities.
    Thank you, sir.
    Mr. Young. Thank you, Doctor, and may I compliment you and 
the committee on the report. We asked for this report. If it 
had been the other way around, I probably wouldn't be 
complimenting you.
    [Laughter.]
    Mr. Young. It reinstates what I have said publicly and 
privately to the Administration, the importance of this 
mission. I did encourage you. The committee was freestanding. I 
just like what I have read and what has been recommended, and I 
hope that somewhere along the line that Congress will wake up 
to the importance of this for the future.
    Admiral?
    Admiral Nimmich. Chairman Young, distinguished members of 
the Committee, thank you for this opportunity to discuss the 
Coast Guard polar icebreaking mission.
    Mr. Chairman, the Coast Guard can trace its polar 
icebreaking roots at least back to 1867 when President Andrew 
Johnson dispatched one of our cutters to research and chart the 
coastal waters of the 30,000 miles of Alaskan coastline and 
simultaneously enforce laws and ensure the safety of the new 
Americans in the newly acquired territory. We accompanied 
Admiral Byrd's expedition to the South Pole and for many years 
ran parallel icebreaking fleets with the United States Navy.
    In 1967, President Lyndon Johnson directed all of the 
Federal icebreaking resources be turned over to the Coast Guard 
to operate on behalf of the entire United States Government. 
The role was reaffirmed in 1990, a Presidential declaration, 
and validated more recently by the 1999 roles and mission study 
of the U.S. Coast Guard.
    The national requirements for polar icebreaking capability 
that the Coast Guard has historically provided fall into three 
distinct but equally important performance classifications: 
direct mission tasking or scientific support; traditional Coast 
Guard mission executions, search and rescue, and environmental 
protection; and sovereign national presence and force 
protection. The Coast Guard's polar program, embodied in these 
three areas, has afforded the United States the opportunity to 
operate in both polar regions, making a prominent contribution 
to the continued and expanded national interest in these remote 
regions.
    This presence is especially vital, given the projections 
for expanded shipping and commerce in the Arctic. The National 
Research Council report and the related research suggest 25 
percent of the world's energy reserves lie above the Arctic 
Circle. Similarly, the number of offerings of Arctic excursions 
indicating tremendous growth in the ecotourism in this remote 
area. Ensuring safety of our citizens, security of our Nation, 
and the stewardship of our national resources will require a 
combination of icebreaking capability and enforcement 
authorities.
    If on review of the National Research Council's report, the 
Administration and Congress decide a Federal polar icebreaking 
program is in the best interest of the United States and 
further decide that the Coast Guard should manage the execution 
of the mission, consistent with our current authorities, we are 
prepared to do so. We will continue in smart fashion to meet 
every operational mission requirement as we have since 1964 
when all of the polar icebreaking assets were entrusted to our 
care.
    Our resolve is to provide the safety, security, and 
stewardship throughout the entire national maritime domain and 
advance our Nation's maritime interests including those in the 
polar regions. The Coast Guard will continue to partner closely 
with the National Science Foundation to support future 
scientific activities to the fullest extent possible while 
simultaneously affording the Nation our full and considerable 
range of capabilities as well as sovereign value of a military 
vessel of the United States.
    Like you, we have just received the report of the National 
Research Council, and we look forward to discussing their 
recommendations and working towards important national 
outcomes.
    Thank you for the opportunity to provide this testimony. I 
ask that you allow my full written statement to be entered into 
the record, and I look forward to answering any questions you 
may have.
    Thank you, Mr. Chairman.
    Mr. Young. Thank you, Admiral, good presentation.
    Dr. Bement? It is my understanding, though, Dr. Treadwell 
and Dr. Bement both have a testimony at 3:00 on the Senate 
side. OK; that is one reason I started this.
    For your information, we do have a vote on, and none of you 
really care about this vote. But Mr. Treadwell, will you go 
back home and tell them I am doing the work, so you don't have 
to sit here and do nothing for hours and hours. I am going to 
miss this vote because I think this is more important. 
Icebreakers are more important than voting on the Minority's 
motion to resolve into a secret session. I thought we were for 
open Government, for goodness sakes.
    Yes, sir?
    Mr. Filner. Reserving the right to object.
    [Laughter.]
    Mr. Young. Dr. Bement, please.
    Mr. Bement. Thank you, Chairman Young and Ranking Member 
Filner. I am pleased to appear before this Subcommittee for the 
first time to speak on behalf of the National Science 
Foundation.
    NSF is an extraordinary agency with an equally 
extraordinary mission of enabling discovery, supporting 
education, and driving innovation, all in the service of 
society and the Nation. In addition, the Foundation has been 
tasked with chairing the Interagency Arctic Research Policy 
Committee created under Federal statute to coordinate Arctic 
research sponsored by Federal agencies. NSF also manages the 
U.S. Antarctic Program on behalf of the U.S. Government as 
directed by Presidential Memorandum 6646 issued in 1982.
    The Arctic and Antarctic are premier natural laboratories. 
Their extreme environments and geographically unique settings 
permit research on fundamental phenomena and processes not 
feasible elsewhere. Polar research depends heavily on ships 
capable of operating in ice-covered regions. They serve as 
research platforms in the Arctic and southern oceans and as key 
components of the logistics chain supporting on-continent 
research in Antarctica. As a principal source of U.S. support 
for fundamental research in these regions, NSF is the primary 
customer of polar icebreaker and ice-strengthened vessel 
services for scientific research purposes.
    NSF's responsibilities take somewhat different forms in the 
Arctic and in the Antarctic. My written testimony explains in 
detail how icebreaker requirements differ in each region, but 
in both cases, the question of how best to meet these 
responsibilities boils down to consideration of three factors: 
cost, performance, and policy.
    With respect to support for Arctic research, the Healy is a 
capable and relatively new ship, but current Coast Guard 
practices governing its use and operating costs put limitations 
on its effectiveness as an Arctic research platform. For 
example, current deployment standards allow Healy to spend only 
200 days at sea annually, averaging 100 days less than her 
international partners. Additionally, the Healy costs roughly 
$100,000 per day at sea, and in contrast, the lease price to 
NSF of the Louis St. Laurent, Canada's largest icebreaker is 
$35,000 per day. As I have already stated, the Healy is a 
capable ship. If she could be operated more efficiently, she 
would be of even more value to the research community.
    Antarctic ship-based research and Palmer Station resupply 
depend primarily on two privately owned vessels: the Laurence 
M. Gould and the Nathanial B. Palmer. These ships are well-
equipped for their mission and they operate at sea more than 
300 days annually at a daily rate of roughly $24,000 and 
$54,000 respectively.
    The operation of McMurdo and South Pole Stations require 
the annual delivery of fuel and supplies by sea. To fulfill 
this requirement, NSF has long depended on the U.S. Coast Guard 
Polar Sea and Polar Star to break out the thick ice in McMurdo 
Sound. As these two ships are at, or close to, the end of their 
service life, however, these national assets have become 
extremely expensive to maintain and operate. In just the past 
two years alone, NSF has spent roughly $20 million on 
extraordinary maintenance. It is clear that the polar 
icebreakers are a fragile resource that could jeopardize the 
critical foreign policy and scientific objectives in the 
Antarctic.
    The overriding question is how to open the channel to 
McMurdo Station so that year-round operation of the Nation's 
McMurdo and South Pole Stations. This year-round occupation is 
central to demonstrating the active and influential presence 
which is a cornerstone of U.S. policy in Antarctica. As noted 
in the National Academy report, meeting this requirement is a 
significant national challenge.
    Accordingly, and after consultations with officials in OSTP 
and OMB, I wrote on May 31st, 2006, to Dr. Jones in her role as 
Chair of the NRC icebreaker study, as follows: Given the 
rapidly escalating costs of Government providers for 
icebreaking services and the uncertain availability of U.S. 
Coast Guard icebreakers beyond the next two years, it is NSF's 
intention to seek competitive bids for icebreaking services 
that support the broad goals of the U.S. Arctic Program. This 
competition would be open to commercial, Government, and 
international service providers.
    Mr. Chairman, NSF's commitment to polar research as well as 
its responsibility to manage the U.S. Antarctic Program are 
unchanging. We only seek the flexibility to do so in the most 
cost-effective manner possible. We are pleased to see that, in 
broad terms, the NRC study released today recognizes our 
constraints.
    I appreciate the opportunity to appear before the 
Subcommittee, and I would be pleased to answer any questions 
you may have. Thank you.
    Mr. Young. Mr. Treadwell, a good Alaskan, would you present 
your testimony?
    Mr. Treadwell. Chairman Young, Chairman LoBiondo, thank you 
for the opportunity to testify before the Subcommittee.
    My name is Mead Treadwell. I am from Anchorage, Alaska. I 
have been a member of the Arctic Research Commission since 
2001, and this is my first testimony as the Chair of the 
commission, designated by the President earlier this summer. I 
also serve and I am delighted to serve with Dr. Bement who 
chairs the Interagency Arctic Research Policy Committee which 
our commission works closely with in formulating Arctic policy.
    I should also state that while I am appointed by the 
President, my remarks have not been cleared by the Office of 
Management and Budget.
    Also, I would just like to dedicate my remarks to two crew 
members of the Coast Guard icebreaker Healy who died this 
summer in the conduct of Arctic research and to their families. 
Lieutenant Jessica Hill and Steven Duque, both divers, should 
be remembered for the contribution and sacrifice they made in 
the quest for Arctic knowledge.
    As far as this study, the commission worked with the 
Committee as you sought this study and worked with the Academy 
to see it happen, the National Research Council. As the report 
has just been publicly released, we will require more time to 
study it ourselves. Based on our preliminary understanding, the 
Arctic Research Commission supports its conclusions, especially 
one, the need to continue to lead in polar research and two, 
the need to begin now to replace the polar class vessels for 
all of the reasons that were given in the report.
    The United States has been a polar country since 1867, and 
we are a leading nation in Arctic research. With respect to 
icebreakers and the Federal icebreaking mission, we work with 
other agencies to make sure that these icebreaker platforms can 
be used for research, and we have also worked with the agencies 
and the Congress to make sure that the future of Arctic 
shipping, as it is changing, is considered. Just in the way of 
that, Mr. Chairman, the Commission sponsored a report called 
the Arctic Marine Transport Workshop. It was a report done a 
few years ago, looking at the potential future of shipping in 
the Arctic which you alluded to. We also co-sponsored a report 
called Advancing Oil Spill Response in Ice-Covered Waters, both 
of which reflect this today.
    The statute that sets up our commission as well as the 
Interagency Arctic Research Policy Committee says that the 
Office of Management and Budget shall seek to facilitate 
planning for the design, procurement, maintenance, deployment, 
and operations of icebreakers needed to provide a platform for 
Arctic research by allocating all funds necessary to support 
icebreaking operations, except for recurring incremental costs 
associated with specific projects, to the Coast Guard.
    Mr. Chairman, this report takes issue with a recent 
decision by OMB to shift funding to NSF and, in fact, argues 
that incremental costs should be borne by the science community 
or other communities and that the main costs should go back to 
the Coast Guard. I think one of the most important conclusions 
of this is that a Presidential decision document on icebreakers 
ought to be considered here as there hasn't been one for many 
years, almost two decades, and that we ought to really 
seriously look at this issue of how icebreakers and icebreaker 
operations are funded.
    While scientific research may be our particular purview, we 
also recognize that a fleet of icebreakers is a vital part of 
the Nation's strategic presence in the polar regions. Climate 
change is presenting both challenges and opportunities such as 
improved prospects for research, enhanced access to natural 
resources, and favorable circumstances for marine 
transportation. One thing this report points out, Mr. Chairman, 
is that it is not just climate change that is making the Arctic 
Ocean more accessible; it is technology. In fact, one of the 
reasons why the National Research Council recommended building 
new icebreakers as opposed to refurbishing the two that we have 
is because of the dramatic changes in the technology that other 
vessels such as commercial vessels will already be using.
    Attached to my written testimony is a letter the Commission 
sent to the President last year on icebreakers, but we have 
four specific points. One, these icebreakers are vital for 
scientific research. If the U.S. is to continue to lead, we 
need this icebreaking capability and shouldn't a Federal 
icebreaking fleet be supporting our research and polar 
interests.
    Second, the icebreakers maintain our national presence in 
both the Arctic and the Antarctic. We are hearing a lot from 
Canada's Prime Minister about sovereignty issues in the North. 
We are working with the State Department to try to develop a 
better mapping program for our potential claims outside the 
200-mile limit there, and we need icebreaker platforms to get 
there. We also have a growing need for an oil spill response 
system in the Arctic, which requires icebreaker support.
    Third, marine access and shipping are increasing. We are 
going to see a large part of America's oil supply come out of 
the Arctic in the years to come. As Arctic sea ice disappears, 
marine access will open up. Mr. Chairman, you and I have had 
discussions. The cost of a few icebreakers is very small 
compared to building a new Panama Canal or building a Suez 
Canal, and having the icebreaker capability to support commerce 
ultimately is a low cost relatively for the Country.
    Finally, as I mentioned before, claims to extend U.S. 
sovereignty in the Arctic is another point the Commission has 
made. Whether or not the U.S. accedes to the Convention on the 
Law of the Sea, we must conduct surveys of our Nation's 
extended continental shelf in order to support our claims of 
sovereignty, and there is no other platform that can do this. 
We have looked at the submarines, and they can be very, very 
helpful, but we need the icebreaker platforms to make this go.
    With that, I will conclude, but I want to underscore the 
issue which Chairman Bement brought to you, that the daily 
operational cost of $100,000 for the Healy puts science and 
scientists in a bind. I think we need to look at these funding 
issues and the costs and try to balance the costs of these 
missions and the other factors, and I believe that is why the 
National Research Council report needs to be dealt with fairly 
quickly.
    Mr. Young. I want to thank the panel.
    Dr. Bement, under the present proposal and actually last 
year's activity, how much money did you transfer to the Coast 
Guard for Coast Guard icebreaker maintenance and improvement?
    Mr. Bement. Well, in Fiscal Year 2006, we received $47 
million from the Coast Guard under transfer in order to fulfill 
total O and M requirements.
    Mr. Young. Pardon me; the Coast Guard received $47 million?
    Mr. Bement. We received that from the Coast Guard.
    Mr. Young. Wait a minute; the Coast Guard, you gave them 
the money?
    Admiral Nimmich. Sir, in the 2006 appropriations, the base 
transfer of 47, almost $48 million went out of the Coast 
Guard's budget into NSF's budget with their agreement that NSF 
then would repay.
    Mr. Young. That is what I wanted; 48. Now, Doctor, how much 
was transferred back to Coast Guard for maintenance of the 
cutters?
    Mr. Bement. Close to $55 million.
    Mr. Young. Fifty-five, is that correct, Admiral?
    Admiral Nimmich. To date, $51.9 million has transferred 
with a commitment up to about $54 million in 2006, and 2007, 
the commitment is to $57 million. But what I would point out, 
Mr. Chairman, is that the base transfer that went over didn't 
include the normal non-recurring funding that NSF would send 
back to the Coast Guard. So we are pretty much at a zero sum 
game at this point in time, sir.
    Mr. Young. The Coast Guard?
    Admiral Nimmich. Yes, sir.
    Mr. Young. Now, Doctor, the other thing is how much did you 
pay the Russian sub that broke down for the Antarctica 
icebreaker?
    Mr. Bement. You are talking about this past year?
    Mr. Young. Yes.
    Mr. Bement. Where the Russian icebreaker broke a blade ff 
the stern?
    Mr. Young. Yes.
    Mr. Bement. Just a moment; the total cost, I can't give you 
the exact cost to repair the blade of the ship, but the total 
cost of commissioning that ship was $8 million.
    Mr. Young. Eight million; what was the yearly contract, $8 
million, or what was the yearly contract for that icebreaker?
    Mr. Bement. We don't have an annual contract. We only 
contracted for the time that we were actually using the ship in 
the Antarctic, and that was $8 million.
    Mr. Young. Well, what I am leading up to is if the Healy is 
not operative and the Polar Star, if you go out, as you 
mentioned in your testimony, you are going out to fulfill the 
science research. You are going out and actually leasing or 
contracting to a foreign country, not U.S.-flagged, icebreaking 
capability, what are your estimates of expenditures?
    Mr. Bement. Generally speaking, our experience in leasing 
icebreaker services from foreign ships is about anywhere from 
$6 million to $8 million a year because they only operate 
during the time that they are required. Our memorandum of 
agreement with the Coast Guard is that we pay total annual 
costs for operation and maintenance, total crew costs, and 
those costs can be a size I indicated, including unusual 
maintenance costs.
    Mr. Young. Again, I might have read it. But I do believe 
before I can cast any stones which I very rarely do because 
this uses ballast usually on my watch, to my whiner, excuse me, 
Mr. Filner.
    Doctor, my interest, of course, is having American-flagged 
icebreakers for not only research which is the thing now, but 
as that research occurs, I think we ought to have these 
American-flagged icebreakers for commerce, and that is our 
responsibility. We have to decide in this Congress. If we don't 
have them American-flagged, then it goes to somebody else.
    I just talked to my staffer here, and I will talk to you, 
Mr. Filner. I think we ought to have Filner Young and Rayfield 
Icebreakers, Incorporated. We may not see much of it, but our 
great grandkids probably would be multi-billionaires. That is 
the next highway.
    Mr. Bement. Mr. Chairman?
    Mr. Young. Yes.
    Mr. Bement. I am fully in agreement with your goal and 
fully support it. We have worked with the Coast Guard for over 
four decades, and the Coast Guard has fulfilled their mission 
with distinction over that period of time. So we have a very 
close working relationship. But the issue we are dealing with 
very fragile resources at this point that are very expensive to 
maintain.
    Mr. Young. We need to get you more money.
    Mr. Bement. Yes.
    Mr. Young. That solves the problem.
    Mr. Bement. That is right. The point is we also have a 
requirement under Presidential memorandum that we should 
operate in the most cost-effective way. So we have this 
dichotomy.
    Furthermore, it is very risky to operate with a single 
icebreaker because there can be breakdowns. So you always have 
to consider having a backup ship.
    Mr. Young. You need three or four?
    Mr. Bement. Well, we need two.
    Mr. Young. We need three or four.
    Mr. Bement. Oh, well, if you are talking about-
    Mr. Young. I am not much interested in the Antarctic, but I 
am more interested in the Arctic.
    Mr. Bement. I totally agree with the NRC report, and if you 
are talking about what the fleet size should be, I would agree.
    Mr. Young. Again, I thank the staff.
    Mr. Chairman, would you mind sitting in my warm seat for a 
while? I will have to leave you right now.
    Mr. LoBiondo. [Presiding] Mr. Filner?
    Mr. Filner. I thank the Chair.
    Mr. LoBiondo. You are up.
    Mr. Filner. I am sorry. I thank Mr. Young for being here.
    I was going to ask him why they would need the icebreakers 
in his area since the liberal plot of global warming may 
alleviate the needs. I am glad you all accept it. The way I 
heard your testimony, climate change, global warming is a fact 
much as some people like to think it is a political something 
or other. I think the evidence is clear on that. Sometime I 
would like to see some projects of what that means for some of 
the things we are talking about today.
    Admiral, I though we had Admiral Nimitz here, and I was 
prepared to be very----
    Admiral Nimmich. No relation, sir.
    Mr. Filner. Admiral Nimmich, right?
    Nimitz is very important to San Diego where I come from.
    I think Chairman Young talked about the basic necessity of 
money, and I think we would agree on that. Do you have any 
estimate for building two more polar icebreakers?
    Admiral Nimmich. Yes, sir; both the Coast Guard and the 
National Science Academy have indicated that it would be at 
least $600 million to $700 million per icebreaker, so about 
$1.4 billion, sir.
    Mr. Filner. Now, given the commitment of the Coast Guard to 
deepwater, do you see any way that the Coast Guard could build 
those over the next decade or so?
    Admiral Nimmich. No, sir; the polar icebreakers are not 
part of the deepwater acquisitions, sir. So any desire to build 
a new fleet would require additional assets over the deepwater.
    Mr. Filner. How many days, do you know, per year is the 
current fleet used for such things as law enforcement or oil 
spills? Do you have a number on that?
    Admiral Nimmich. Sir, they are primarily used right now for 
scientific research. We are indicating the expanding role in 
the Arctic. The number of ecotours that you could Google, 
Arctic adventures on the web, you would find pages and pages of 
opportunities to go into the Arctic, creating a safety risk. 
The leases for exploratory drilling in the Arctic Region have 
all been released and sold. The expanding nature up there would 
require the additional capabilities of Coast Guard icebreakers, 
sir.
    Mr. Filner. The need for additional is clear to you, given 
those needs?
    Admiral Nimmich. Sir, for the Nation to meet their 
expectations in the Arctic and Antarctic, the current suite of 
icebreakers are not adequate.
    Mr. Filner. By the way, it slipped my mind with the 
research you mentioned. Is there any update on the 
investigation into the deaths that were referred to earlier of 
that Coast Guard crew, the two members who died?
    Admiral Nimmich. Sir, it is an ongoing investigation. As 
you would expect, there are extraordinary amounts of detail 
that they want to get to make sure it is right, and I don't 
have a projection when the investigation will be done. Whenever 
a loss of life is done in a commercial side, the National 
Transportation Safety Board takes makes sure that they get the 
details right because we don't want to mislead anyone. This 
could impact future diving operations or procedures and 
additional people's lives. So we are making sure that we get 
all the details particularly right, and I don't have a 
prediction of when that will be available.
    Mr. Filner. It is kind of long; that is all. I mean I watch 
CSI all the time. They do it in an hour, so I don't know.
    Did you think, by the way, that this whole polar 
icebreaking research is part of the core mission of the 21st 
Century Coast Guard? Should it be assigned to some other agency 
like NOAA perhaps? What is your sense of that, given your 
inability right now at least to fund any expansion?
    Admiral Nimmich. Sir, the competencies and the capabilities 
to operate in the polar region are pretty unique, and once you 
have those, to create those competencies and capabilities in 
other agencies become redundant.
    I would suggest that the National Science capability can be 
incorporated with the sovereignty and security issues that you 
want in the polar region, and the Healy is a prime example. 
Although the Healy costs more than other icebreakers, that is 
because she can do more things than other icebreakers can, and 
she can represent the United States as a military vessel there 
that other vessels cannot. But the Healy has been designed in 
cooperation with the National Science Foundation to accommodate 
and to be an excellent platform for research, more so than 
other icebreakers of their style, sir.
    Mr. Filner. Dr. Bement, were you in agreement with his 
estimates and the use and the need?
    Mr. Bement. I am sorry. Yes, I am in agreement.
    Mr. Filner. Obviously, NSF doesn't have the ability to 
build these right now.
    Mr. Bement. We are science foundation; we are not an 
operating agency.
    Mr. Filner. Here we are in the 21st Century, and we don't 
have science agencies funded at any level that they should be.
    Mr. Bement. But I think the National Research Council put 
it appropriately that these missions are part of a multi-
mission suite that can best be performed by either a Government 
icebreaker service or even a commercial icebreaker service. We 
find that in making inquiries, there is an increasing need for 
icebreaking for commercial applications, and we have, through 
our request for information, potential takers who would be 
willing to take on the icebreaking mission in the Antarctic as 
well as the resupply mission on an incremental cost basis. As a 
matter of fact, the ships that we operate in the southern ocean 
that have much less capabilities in icebreaking are 
commercially operated and commercially owned.
    Mr. Filner. Thank you, Mr. Chairman. Thank you.
    Mr. LoBiondo. Mr. Coble?
    Mr. Coble. Thank you, Mr. Chairman.
    At the outset, Chairman Young expressed his intense 
interest in the strong polar icebreaker program, and I share 
that intense interest. I regret that I missed most of the 
testimony because of the vote on the floor.
    Admiral, I think you responded to the gentleman from 
California, but I am going to give you a chance to extend it, 
if you want to. My question is: Alluding to the NRC report that 
stated very clearly that the United States need a strong polar 
icebreaker program, why is the Coast Guard the best agency to 
manage this program? I think you touched on it earlier, but did 
you want to extend on that?
    Admiral Nimmich. Yes, sir. Mr. Coble, we know you have a 
strong interest in icebreakers and thank you for the service 
that you performed back on the north one, I believe it was.
    Mr. Coble. You have a good memory, sir.
    Admiral Nimmich. Thank you, sir.
    Mr. Coble. My service was not that outstanding, but thank 
you for mentioning that.
    Admiral Nimmich. As I indicated, commercial entities can 
break ice, but they don't bring the full suite of competencies 
and capabilities that a U.S. law enforcement and military 
organization do. You are talking about the ability to enforce 
environmental laws, the ability to provide search and rescue 
capability which is not an inherent characteristic of 
commercial vessels. So the full suite of capabilities and 
competencies, law enforcement authorities that you have 
invested in the Coast Guard become available to you as 
protecting U.S. interests both in the Arctic and Antarctic, 
sir.
    Mr. Coble. I guess furthermore, Admiral, that would be the 
justification for the United States having only one polar 
icebreaker fleet, would it not?
    Admiral Nimmich. Sir, it eliminates the redundancy that you 
would have if you had two fleets, one to do law enforcement, 
one to do icebreaking. By having it in one fleet, you made a 
more effective and efficient program, sir.
    Mr. Coble. When you mentioned the cutter Northwind, my mind 
nostalgically refers to that. I presume she is resting in some 
boneyard now, is she?
    Admiral Nimmich. Sir, we will find out the answer for you.
    [The informations received follows:]

        USCGC NORTHWIND (WAGB 282) was decommissioned in Wilmington, 
        North Carolina on 20 January 1989. The "Grand Old Lady of the 
        North" was subsequently tranferred to Maritime Administration 
        (MARAD) where she remained until being scrapped by 
        International Shipbreakers, in the Port of Brownsville Texas in 
        1999. It took approximately six months to complete the 
        scrapping.

    Mr. Coble. I would like to know that.
    Finally, let me put this question to either of the four 
witnesses, Mr. Chairman, and this may have been addressed 
during my absence. What is the relationship between the 
National Science Foundation and the United States Coast Guard 
vis-a-vis the polar icebreaker program?
    Mr. Bement. Mr. Coble, the arrangement is a memorandum of 
agreement between the NSF and the Coast Guard. We define the 
requirements for icebreaking based on the schedule for a 
particular year in the Antarctic. The Coast Guard then will 
identify their operating plan for meeting those requirements 
plus their estimated costs. Then we provide those costs and 
operate according to that plan.
    Mr. Coble. Anybody want to add to that?
    Admiral Nimmich. Yes, sir; I agree with Dr. Bement that all 
of the funding in order to operate icebreakers exists now in 
the National Science Foundation budget. That money is then, 
through agreement through the memorandum of understanding, 
transferred back to the Coast Guard to meet the needs that they 
have decided. The Coast Guard is the operating agency that runs 
the vessels, but the money to run them is in the National 
Science Foundation budget.
    Mr. Coble. I thank you.
    Yes, Doctor?
    Ms. Jones. One of our recommendations was that the 
relations between the Coast Guard and all of the science 
agencies--NSF, NOAA--should be more clearly set out, and we 
would ask the Administration to do that. If you want an 
operating entity to have a mission-capable fleet, they should 
be funded to do that.
    Our recommendation is that the relationship with the 
Foundation and NOAA and other users ought to be that those 
science users pay incremental costs, and by that, we mean the 
costs beyond what the Coast Guard would be funded to operate 
those ships to pay for additional direct tasking beyond the 
normal crew, the normal patrol, the fuel that the normal patrol 
would use. That is a relationship that used to exist in the 
longer term past. Our observation was that it worked well, and 
we recommend that we revert to that kind of relationship.
    Mr. Coble. Thank you all for being with us.
    Mr. Chairman, thank you.
    Mr. LoBiondo. All right, thank you, Mr. Coble.
    Since the Polar Sea completed a modest upgrade this year, I 
think the estimates are that it will be mission-capable for 
another three to five years. Under current Federal plans, this 
means that the Healy will be the Coast Guard's only mission-
capable polar icebreaker in as soon as three years or shortly 
thereafter. The National Academy study indicates that we need 
three icebreakers. How does the Administration plan to respond 
to the report's recommendations and how will the National 
Science Foundation keep McMurdo open when the Coast Guard is 
operating only the Arctic-based Healy? Anybody?
    Admiral Nimmich. Sir, the Coast Guard cutter, Polar Star, 
has been put in caretaker status. In caretaker status, that 
means with appropriated funds, it could be brought up to 
operational capability. The Polar Sea is the best equipped now 
and, with the funding received from the National Science 
Foundation, has been made capable of operating within the 
Antarctic Region to open McMurdo Bay in 2006, I am sorry, in 
2007 and 2008. Additionally, I believe the National Science 
Foundation is contracting a second foreign-flagged icebreaker 
to assist, but I will leave that Mr. Bement to confirm.
    In the interim until replacement or rehab could be done, 
external foreign-flagged vessels would have to be contracted, 
sir.
    Mr. Bement. It is true that the Polar Sea is now 
operational. Whether it is for one or two years or four to six 
years is questionable. But it is always prudent to have a 
backup for an icebreaker operating in the Antarctic because of 
the extreme conditions of breaking very heavy ice.
    When we put out a request for information, we discovered 
there were commercial entities as well as international 
entities that could provide the need for a backup icebreaker 
this year, and the one that seemed to be most appropriate was 
the Swedish icebreaker, Oden. So we have contracted for the 
Oden to serve as a backup for the Polar Sea during this season.
    Mr. LoBiondo. Admiral, has the Coast Guard completed a 
mission gap analysis for the icebreaking mission?
    Admiral Nimmich. Sir, we have draft mission analysis and 
operational requirements documents drafted. They are in draft 
form at this point, sir.
    Mr. LoBiondo. When will the results be available?
    Admiral Nimmich. Sir, I will get that for you for the 
record.
    Mr. LoBiondo. OK.
    Does the Coast Guard and the National Science Foundation 
agree with the recommendation in the report that it should keep 
the Polar Star and the Polar Sea until a new icebreaker is 
built? I think you already established that. I am just trying 
to confirm it.
    Mr. Bement. I think our position is that we need to have 
the flexibility to provide backup in the event that the only 
available icebreaker should break down. If we had to 
recondition the Polar Star to replace the Polar Sea, that would 
be a very expensive maintenance program. Given that we can 
contract for either commercial or international services at a 
much lower rate, we would want to consider all options in order 
to achieve that mission in the most cost-effective way.
    Mr. LoBiondo. Mr. Taylor?
    Mr. Taylor. Thank you, Mr. Chairman.
    I am curious; didn't the Soviet Union have some nuclear 
powered icebreakers at one point? I am curious, what was their 
success or lack of success with that? I happen to be doing some 
studying on Admiral Nimitz's efforts to get us towards a 
nuclear powered service fleet in the sixties, and given today's 
price of fuel, it sure looks like he was right then and he 
would certainly be right now.
    Admiral Nimmich. Sir, the Soviets do operate a fleet of 
nuclear powered icebreakers. When reviewed for use in the 
Antarctic and Dr. Bement can either confirm or attest to this-
they were not designed to be able to have cooling capability to 
go across the warmer waters of the Equator so that their 
ability to move from the Arctic to the Antarctic is severely 
limited and therefore they have not been available. They are 
higher horsepower and possibly more capable than the Star and 
the Sea.
    Mr. Taylor. Does the Coast Guard or the United States Navy 
ever look at a cost alternative to conventionally powered? 
Since the life expectancy of this vessel is going to be 30 
years anyway, which I am told is about the life expectancy of 
fuel burn rate on nuclear powered.
    Admiral Nimmich. Sir, in the past, we have not looked at 
nuclear capability due to the extraordinary training 
requirements and the technical nature of running those ships 
compared to the standard diesel-electric plants that we have in 
the current icebreakers, but that is not to say that we 
couldn't look at that, sir.
    Mr. Taylor. I am sure you speak with the Soviets, now, the 
Russians. I am just curious; what has been their experiences as 
far as the cost factor? You talked about the problem with 
operating in warmer waters, but other than that, what kind of 
problems or what kind of advantages have they found?
    Admiral Nimmich. Sorry, I can't answer that, but we can 
give you some answer for the record.
    Mr. Taylor. OK.
    Mr. Bement. If I can speak for the Krasin, the Krasin was 
not a nuclear powered icebreaker. It was a conventionally 
powered icebreaker that was designed and built in Finland and 
operated commercially with a commercial crew so their crew size 
was much less than what you would normally find in a military 
operated icebreaker. The experience we had with the Krasin was 
very favorable and very positive. They met all of our 
requirements in the least amount of time.
    Mr. Taylor. Admiral, going back, just as a matter of 
curiosity, on one of your big white ones, the Chase, for 
example, how many days a year would it be underway versus one 
of your icebreakers?
    Admiral Nimmich. Our standard for all of our larger cutters 
are 185 days away from home port, give or take 10 percent. The 
Healy operates under about that same parameter with one crew. 
The Healy goes about 200 to a few days over 200 days underway 
away from home port a year.
    Mr. Taylor. What is your ballpark estimate for the cost of 
fuel on any of your larger assets as a percentage of the total 
operating cost of that ship? There has to be some sort of 
thumbnail that the Coast Guard uses.
    Admiral Nimmich. Sir, I don't want to hazard a guess on 
your behalf, but we can answer that. It is a percentage of the 
costs of operating the ship, realizing that in the ice, the 
fuel usage to be able to break through ice is much greater than 
it is to steam through open water. So the cost of fuel for a 
polar breaker is far greater than it would be for a 378.
    That said, I guess, Dr. Bement, my question back would be: 
Before the total costs or for you, the incremental costs of 
using a Coast Guard icebreaker were similar to that that you 
paid for the Krasin?
    Mr. Bement. I am getting information now.
    Mr. Taylor. Admiral, while he is looking at that, for 
comparative purposes, the shaft horsepower on a 378 is what? 
The shaft horsepower on one of your polar classes is what? The 
reason I want to do that is I want to see how closely that 
comes to the size of each of the engines on a nuclear powered 
carrier.
    Admiral Nimmich. You are really testing me today, sir.
    Mr. Taylor. Well, could you get that information?
    Admiral Nimmich. Absolutely, sir; I can tell you the shaft 
horsepower on the polar breakers, the Star and the Sea, is 
60,000 shaft horsepower which is about 12,000 horsepower more 
than the Krasin could provide. That said, I don't know the 
exact shaft horsepower on a 378, but it depends on whether you 
are running on diesel or turbines. Once it moves up on 
turbines, it is fairly substantial but nowhere near the type of 
horsepower that you need to break through four to twelve feet 
of polar fast ice. That is an extraordinary amount of power you 
need to be able to drive up on top of that ice.
    [The information received follows:]

        The WHEC 378-foot Hamilton class ships have 36,000 shp.
        USCGC HEALY (WAGB 20) has 30,000 shp.
        USCG POLAR STAR (WAGB10) has 60,000 shp.
        USCGC POLAR SEA (WAGB 11) has 60,000 shp.

    Mr. Taylor. I am sure you have jumped to the conclusion 
that if we are serious about cutting our dependence on foreign 
sources of fuel, obviously, one proven alternative would be 
nuclear power for our vessels. That is why, even though I am 
sure it requires some greater cross-training with the Navy as 
far as where you get your engine space operators from, but we 
ought to have a school for that for Charleston. We already have 
a training line through the United States Navy. I just think it 
bears looking into.
    I know that I am on the Armed Services Committee, working 
with Chairman Bartlett. We are going to do everything we can to 
get the Navy to look at nuclear for future surface ships, and 
this might provide an opportunity as well for what you are 
doing here. Even though the price of fuel has come down a 
little bit, my gut tells me the day after the election, it is 
off to the races again.
    Admiral Nimmich. Yes, sir, I understand your point.
    [The information received follows:]

    [GRAPHIC] [TIFF OMITTED] T0669.001
    
    [GRAPHIC] [TIFF OMITTED] T0669.002
    
    Mr. Bement. Mr. Taylor, I believe I have an answer to your 
question. In 2004, the two polar icebreakers cost over $3 
million in fuel costs, $3,039,000. In 2005, both the Polar Star 
and Krasin together cost $1,720,000 for fuel. Breaking that 
down, the Polar Star which had limited service during that 
campaign, the fuel cost was $1,057,000, and the cost of the 
fuel for the Krasin was $662,739.
    Mr. Taylor. One last question, Mr. Chairman, but I am just 
curious.
    One of the cases that Admiral Nimitz made back in the 
sixties was the savings of all the other things that go with a 
conventionally powered ship, that you don't have to have the 
oil or you don't have to coordinate the refueling at sea, you 
don't have the vulnerability of slowing down and having a 
predictable course while you are refueling.
    My question would be on one of your large icebreakers. Do 
they carry enough fuel for the entire voyage? They leave the 
home port, they go to the South Pole or the North Pole, they 
return, or do they have to be met and replenished for fuel 
underway?
    Admiral Nimmich. They are not replenished underway, sir, 
but they do need to make a fuel stop. Either in Hawaii or in 
Australia, they stop to refuel before they go onto the ice.
    Mr. Taylor. OK.
    Thank you very much, Mr. Chairman.
    Mr. LoBiondo. I would like to ask unanimous consent that 
Mr. Filner's opening statement and my opening statement may be 
part of the record. Without objection, so ordered.
    Mr. Diaz-Balart, are all your icebreaking needs taken care 
of in your district?
    Mr. Diaz-Balart. Mr. Chairman, we have a lot of icebreaking 
needs in Miami, and I think they have all been taken care of. I 
appreciate that. Thank you, sir.
    [Laughter.]
    Mr. LoBiondo. I just wanted to make sure.
    Mr. Filner, do you have anything further?
    Mr. Filner. No, thank you, Mr. Chairman.
    Mr. LoBiondo. I would like to thank our witnesses for being 
here today.
    The Subcommittee is adjourned.
    [Whereupon, at 2:05 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0669.003
    
    [GRAPHIC] [TIFF OMITTED] T0669.004
    
    [GRAPHIC] [TIFF OMITTED] T0669.005
    
    [GRAPHIC] [TIFF OMITTED] T0669.006
    
    [GRAPHIC] [TIFF OMITTED] T0669.007
    
    [GRAPHIC] [TIFF OMITTED] T0669.008
    
    [GRAPHIC] [TIFF OMITTED] T0669.009
    
    [GRAPHIC] [TIFF OMITTED] T0669.010
    
    [GRAPHIC] [TIFF OMITTED] T0669.011
    
    [GRAPHIC] [TIFF OMITTED] T0669.012
    
    [GRAPHIC] [TIFF OMITTED] T0669.013
    
    [GRAPHIC] [TIFF OMITTED] T0669.014
    
    [GRAPHIC] [TIFF OMITTED] T0669.015
    
    [GRAPHIC] [TIFF OMITTED] T0669.016
    
    [GRAPHIC] [TIFF OMITTED] T0669.017
    
    [GRAPHIC] [TIFF OMITTED] T0669.018
    
    [GRAPHIC] [TIFF OMITTED] T0669.019
    
    [GRAPHIC] [TIFF OMITTED] T0669.020
    
    [GRAPHIC] [TIFF OMITTED] T0669.021
    
    [GRAPHIC] [TIFF OMITTED] T0669.022
    
    [GRAPHIC] [TIFF OMITTED] T0669.023
    
    [GRAPHIC] [TIFF OMITTED] T0669.024
    
    [GRAPHIC] [TIFF OMITTED] T0669.025
    
    [GRAPHIC] [TIFF OMITTED] T0669.026
    
    [GRAPHIC] [TIFF OMITTED] T0669.027
    
    [GRAPHIC] [TIFF OMITTED] T0669.028
    
    [GRAPHIC] [TIFF OMITTED] T0669.029
    
    [GRAPHIC] [TIFF OMITTED] T0669.030
    
    [GRAPHIC] [TIFF OMITTED] T0669.031
    
    [GRAPHIC] [TIFF OMITTED] T0669.032
    
    [GRAPHIC] [TIFF OMITTED] T0669.033
    
    [GRAPHIC] [TIFF OMITTED] T0669.034
    
    [GRAPHIC] [TIFF OMITTED] T0669.035
    
    [GRAPHIC] [TIFF OMITTED] T0669.036
    
    [GRAPHIC] [TIFF OMITTED] T0669.037
    
    [GRAPHIC] [TIFF OMITTED] T0669.038
    
    [GRAPHIC] [TIFF OMITTED] T0669.039
    
                                    

</pre></body></html>
